No. 20-311

DEBORAH WALTON,
Petitioner,
v.
FIRST MERCHANTS BANK,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION
FOR AWRIT OF CERTIORARI in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 4240 words, excluding the parts that are exempted by Supreme Court
Rule 33.1(d), as needed.

I Deborah Walton, affirm under the penalties of perjury, that the Compliance of
Compliance is true and accurate, on this day of September 14, 2020.

N

s

Deborah Walton, pro se

RECEIVED
SEP 2 3 2020
26;RiNaFjgRif-ST

